HHS/OIG, Audit -"Review Of Medicare Reimbursement For Outpatient Cardiac Rehabilitation Services For Calendar Year 2001, MountainView Hospital, Las Vegas, Nevada,"(A-09-03-00045)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicare Reimbursement For Outpatient Cardiac Rehabilitation Services For Calendar Year 2001, MountainView
Hospital, Las Vegas, Nevada," (A-09-03-00045)
November 7, 2003
Complete
Text of Report is available in PDF format (1.34 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed MountainView Hospital (the Hospital)
for outpatient cardiac rehabilitation services.  Our review found that even though physician supervision is generally
assumed to be met in an outpatient hospital department, the Hospital did not designate a physician to directly supervise
the services provided by its cardiac rehabilitation program staff.  Further, the Hospital did not provide the services incident
to a physicians professional services.  In addition, from our specific claims review for a non-statistical sample
of 10 beneficiaries who received 129 outpatient cardiac rehabilitation services during Calendar Year 2001, we determined
that the Hospital received Medicare reimbursement for the services, amounting to approximately $350, for which the diagnoses
used to establish the patients eligibility for the services may not have been supported by medical record documentation,
or which were otherwise unallowable.  We attributed these questionable services to weaknesses in the Hospitals internal
controls and oversight procedures.  We recommended that the Hospital (1) work with its fiscal intermediary regarding
the direct physician supervision and incident to requirements; (2) work with its fiscal intermediary to establish the
amount of repayment liability, estimated to be as much as $350; (3) bill for evaluation and orientation services only when
performed by a physician; and (4) implement controls to ensure that documentation is maintained in the medical records
to support outpatient cardiac rehabilitation services that are provided.  The Hospital agreed to take actions based
on our recommendations, although it did not concur with our findings regarding direct physician supervision and incident
to physician services.